<html>
<title> - THE VALUE OF EDUCATION CHOICES: SAVING THE D.C. OPPORTUNITY SCHOLARSHIP PROGRAM</title>
<body><pre>[Senate Hearing 112-195]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-195

THE VALUE OF EDUCATION CHOICES: SAVING THE D.C. OPPORTUNITY SCHOLARSHIP 
                                PROGRAM

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                                 of the

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 16, 2011

                               __________

         Available via the World Wide Web: http://www.fdsys.gov

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




                  U.S. GOVERNMENT PRINTING OFFICE
66-622 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001












        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           SCOTT P. BROWN, Massachusetts
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           JOHN ENSIGN, Nevada
JON TESTER, Montana                  ROB PORTMAN, Ohio
MARK BEGICH, Alaska                  RAND PAUL, Kentucky

                  Michael L. Alexander, Staff Director
  Rachel R. Sotsky, Legislative Assistant, Office of Senator Lieberman
             Elyse F. Greenwald, Professional Staff Member
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
              Amanda Wood, Minority Deputy General Counsel
    Kenneth Altman, Legislative Assistant, Office of Senator Collins
                  Trina Driessnack Tyrer, Chief Clerk
         Patricia R. Hogan, Publications Clerk and GPO Detailee
                    Laura W. Kilbride, Hearing Clerk















                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................................     1
    Senator Collins..............................................     3
Prepared statements:
    Senator Lieberman............................................    27
    Senator Collins..............................................    29

                               WITNESSES
                      Wednesday, February 16, 2011

Hon. Vincent C. Gray, Mayor, District of Columbia................     4
Hon. Kwame R. Brown, Chairman, Council of the District of 
  Columbia.......................................................     7
Kevin P. Chavous, Chairman, Board of Directors, Black Alliance 
  for Educational Options........................................    15
Virginia Walden Ford, Executive Director, D.C. Parents for School 
  Choice.........................................................    18
Patrick J. Wolf, Ph.D., Professor and 21st Century Chair in 
  School Choice, Department of Education Reform, University of 
  Arkansas.......................................................    21

                     Alphabetical List of Witnesses

Brown, Hon. Kwame R.:
    Testimony....................................................     7
    Prepared statement...........................................    37
Chavous, Kevin P.:
    Testimony....................................................    15
    Prepared statement...........................................    42
Ford, Virginia Walden:
    Testimony....................................................    18
    Prepared statement...........................................    45
Gray, Hon. Vincent C.:
    Testimony....................................................     4
    Prepared statement...........................................    31
Wolf, Patrick J., Ph.D.:
    Testimony....................................................    21
    Prepared statement...........................................    48

                                APPENDIX

CRS Report for Congress titled ``District of Columbia Opportunity 
  Scholarship Program: Implementation Status and Policy Issues,'' 
  January 28, 2010, by Rebecca R. Skinner, Specialist in 
  Education Policy, and Erin D. Caffrey, Analyst in Education 
  Policy, submitted for the Record by Senator Lieberman..........    60
Additional letters and prepared statements submitted for the 
  Record from:
    American Association of School Administrators, letter dated 
      February 15, 2011..........................................    79
    American Association of University Women, prepared statement.    81
    Anti-Defamation League, letter dated February 15, 2011.......    87
    American Jewish Committee (AJC), letter dated February 15, 
      2011.......................................................    88
    Americans United for Separation of Church and State, prepared 
      statement..................................................    89
    Dr. Martin Carnoy, Vida Jacks Professor of Education, 
      Stanford University, prepared statement....................    91
    DC Vote, letter dated February 15, 2011......................    97
    Senator Richard J. Durbin, prepared statement................    99
    National Council of Jewish Women, letter dated February 15, 
      [2010] 2011................................................   101
    National Coalition for Public Education, prepared statement..   102
    National Coalition for Public Education, letter dated 
      February 8, 2011...........................................   109
    National Coalition for Parental Options, letter dated March 
      1, 2011....................................................   112
    National School Boards Association, letter dated February 15, 
      2011.......................................................   114
    Union of Orthodox Jewish Congregations of America, letter 
      dated February 16, 2011....................................   116
    People For the American Way, letter dated February 16, 2011..   117
    Secular Coalition for America, letter dated February 16, 2011   120
    Paul Strauss, U.S. Senator, District of Columbia (Shadow), 
      prepared statement.........................................   122

 
                    THE VALUE OF EDUCATION CHOICES:
                      SAVING THE D.C. OPPORTUNITY
                          SCHOLARSHIP PROGRAM

                              ----------                              


                      WEDNESDAY, FEBRUARY 16, 2011

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:25 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman and Collins.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. Good morning. The hearing will come to 
order. I thank all the witnesses for being here. I want to 
particularly welcome Mayor Vincent Gray and Chairman Kwame 
Brown.
    This is a cause, and I suppose a debate, that has gone on 
for a period of years now since this program was adopted in 
2003. Senator Collins and I have been strong supporters of it. 
We have had frustrating times the last few years as we have not 
succeeded in adding new students to this critically important 
program, but we are not giving up because we believe in it so 
deeply.
    I am just going to speak a little bit and put my statement 
in the record.
    This program was adopted for a very fundamental reason 
which was that by all the objective indicators we saw, too many 
children in the District of Columbia were not receiving their 
God given, certainly constitutionally protected, right to an 
equal opportunity of an equal education. Our judgment was, in 
adopting this program, that we had to focus on the children, 
and really more particularly on the individual children and how 
we could maximize their opportunity for an equal education and 
a ladder up in American society.
    In other words, we decided to focus on the child instead of 
the particular institution that was delivering the education to 
the child. Obviously most of our children in the District of 
Columbia and throughout America will always be educated in 
public schools, I was, and I would not be where I am today if I 
had not received the education I got in the public schools in 
Stamford, Connecticut, but the fact is that a lot of children 
in the District are not receiving--there was, at that time, and 
unfortunately still, D.C. public schools ranked last on a 
series of national evaluations, 51 out of 51, and so we created 
this program, D.C. Opportunity Scholarship Program (OSP), to 
give support to low-income children to attend private schools 
as their ladder up.
    We also, just to meet the argument that we were not going 
to take this money out of available public school funds and 
created a tripartite program where we gave equal amounts of 
money to the public schools, additional money, money they would 
not otherwise have received which is a considerable amount over 
the years we have been going to give to the charter schools 
which have done really exceptional work.
    The public schools of the District, I think, are improving, 
but by objective indicators they are not there yet. It was a 
very compelling, poignant moment last year when then chancellor 
Michelle Rhee came out for our proposal and she said, ``I am 
devoting all my energy to the public schools, but until I can 
look every parent of a child in the District in the eye and say 
you can get the education you want your children to get in the 
D.C. public schools, I cannot oppose this program in good 
conscience.''
    So, unfortunately for a lot of reasons it did not make it. 
Usually I try to see the arguments on the other side. This one 
I have trouble with.
    I know, Mayor, you and I have a different position and we 
will have a good, respectful discussion about it. We have, as I 
said, new faces today--Mayor Gray, Chairman Brown. We have 
some, I would not call them old faces, but familiar faces: 
Kevin Chavous, youthful, whatever his age, and extremely 
dynamic; Virginia Walden Ford represents the parents of D.C. 
children in these programs; and then Dr. Wolf who has done an 
independent evaluation.
    I will say as we begin this battle again this year that 
there is one new face, at least in one new place that gives us 
hope that we are going to succeed this year and that is that 
John Boehner is the Speaker of the House and he has been a 
consistent and fervent supporter of this program and, frankly, 
I think it is personal because he came from a large, low-income 
family and the education he received--in that case in the 
Catholic school system--he feels helped him to get at least the 
footing on the ladder that now has taken him to be Speaker of 
the House, third in line for the Presidency of the United 
States.
    So, the Speaker does not usually introduce bills. That is a 
custom over in the House, but he decided to co-sponsor the 
reauthorization of this tripartite program and that is really 
good news. This is going to be complicated, but we are starting 
this year with a reason for hopefulness and I hope we can end 
it in a way that not only creates opportunity, again through 
the D.C. Opportunity Scholarship Program, but again puts more 
money into the charter schools and the public schools of the 
District of Columbia.
    I thank everybody for being here. I know that the mayor and 
chairman have to go to a memorial service and do not have a lot 
of time, so I welcome them. We will get to them in a moment.
    Senator Collins, thank you for your partnership on this 
cause as well as so many others. I would welcome your opening 
statement now.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you very much, Mr. Chairman, and let 
me thank you not only for your eloquent statement this morning, 
but for continuing this fight. It reflects the deep compassion 
that you have for each and every child in the District of 
Columbia and I know that there are so many families in the 
District who are so grateful for your untiring advocacy on 
their behalf.
    A year has passed since we last discussed, at a hearing in 
this room, how we could best support the efforts of parents and 
students in the District to secure a high-quality education. At 
that time, we heard the inspiring personal success stories of 
participants in the opportunity scholarship program.
    Ronald Holassie is here again today. He is in the audience. 
He talked about how the D.C. Opportunity Scholarship Program 
had literally changed his life and I so remember his taking on 
one of our colleagues who was proposing that the program be 
terminated and he said these memorable words, which echo today. 
He pointed out to this Senator that D.C. schools did not get 
bad overnight and they are not going to get better overnight 
either. And I thought that summed up so well why we are here 
and why we are advocating this important program and I know 
today, both Ronald and his younger brother, Richard, are vivid 
examples of this program's success.
    I had an opportunity to talk to him briefly before the 
hearing. He is now a senior and is looking at colleges. This is 
the difference that this program can make, and the testimony 
last year helped to highlight the real world implications for 
families in the District of this Administration's unfortunate 
decision last year to prevent new students from joining this 
successful program and their words still echo today as we 
consider the Administration's newest misguided proposal to kill 
the program altogether. While not unexpected, this decision is 
both disappointing and shortsighted.
    As the Federal Department of Education's own Institute of 
Education Sciences makes clear, students who participated in 
this program are more likely to graduate from high school than 
those who did not. That is a clear indicator of this program's 
success, so I am very proud to have joined the Chairman in 
reintroducing legislation to reauthorize the D.C. Opportunity 
Scholarship Program.
    This program has clearly filled a need, a fact that is 
illustrated by the long lines of parents waiting to enroll 
their children into the program. Since its inception, more than 
8,400 students have applied for scholarships and this morning a 
new poll is being released that provides further evidence of 
the support of District residents for this program. Seventy-
four percent of D.C. residents want Congress to restore and 
expand the highly effective D.C. Opportunity Scholarship 
Program. Seventy-five percent believe that the academic results 
of the program provide a convincing reason to reauthorize the 
program. Seventy-seven percent agree that all options should be 
on the table. And here is something that is even more 
heartening: 83 percent of the respondents believe that even if 
the program can only benefit some children, they should have 
the right to participate.
    I think that those are convincing statistics of the broad-
based support in the District for this program.
    Let me just end by echoing the Chairman's point that when 
this program was first established 6 years ago, it was because 
the leaders of the District of Columbia became so frustrated 
with the institutionalized failure within the public school 
system, so they worked with Congress and with President George 
W. Bush's Administration to come up with the three-sector 
approach that provided additional funding for D.C. public 
schools, for D.C.'s public charter schools, and new 
scholarships for low-income families.
    It was a three-pronged approach that did not slight the 
public schools but have helped the public schools to become 
stronger. So, I hope that we can rectify what I believe to be a 
real injustice to the children of the District and I look 
forward to continuing to work with the Chairman.
    Since I am going to, unfortunately, have to leave at 10:15, 
let me just make one final point. If Congress does not 
reauthorize this program, it is estimated that 93 percent of 
the students would attend a school in need of improvement, 
corrective actioning, or restructuring, as designated under the 
No Child Left Behind Act. In other words, 93 percent of the 
children would be returned to schools that do not measure up. 
We simply cannot allow that to happen. Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you very much, Senator Collins, 
for your really eloquent statement.
    Mayor Gray, it is an honor to welcome you here for the 
first time. We have this historic connection through this 
Committee with the District, although of course we respect your 
autonomy and try to protect it, but it is an honor to welcome 
you as the new mayor and to look forward to your testimony now.

   TESTIMONY OF HON. VINCENT C. GRAY,\1\ MAYOR, DISTRICT OF 
                            COLUMBIA

    Mayor Gray. Thank you very much, Senator. Thank you both 
for having me this morning, Senator Lieberman and Senator 
Collins and any other Members that may be here this morning.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mayor Gray appears in the Appendix on 
page 31.
---------------------------------------------------------------------------
    I am Vincent C. Gray, Mayor of the District of Columbia, 
and I want to thank you for the opportunity to share my views 
on public education and educational choice.
    How we educate our children is one of the most defining and 
politically leveraged issues facing the United States today. 
Education is, and has been, a vehicle of personal enrichment, 
individual fulfillment, and professional success for many 
Americans. And for this Nation, it is the key to our continued 
global competitiveness in an ever changing marketplace.
    I share the Committee's interest in the successful 
education of the children of the District of Columbia, and 
experience it more profoundly because of my role as Mayor and 
chief executive. Just so you know, I am a native Washingtonian, 
a K-12 product of the D.C. public schools, and I attended 
undergraduate and graduate school at George Washington 
University.
    Today, this Committee will receive testimony from several 
people on whether the D.C. Opportunity Scholarship Program 
should be reauthorized.
    Let me begin by expressing my views on education and how 
the District of Columbia's parents and children best can be 
served. Anyone who knows me knows that I am an unwavering 
advocate for children and I have been for many years. Simply 
put, I am a strong and long-time advocate for quality education 
for children in our city.
    When I was elected Chair of the Council of the District of 
Columbia, one of the many questions that faced me was how I 
intended to organize the Council's committee structure. I made 
a decision that the Committee of the Whole, of which I served 
as Chair, would have oversight responsibility for education. It 
was my intention to elevate the issue of education to one where 
every council member would participate in the direction, 
decisionmaking, and oversight of public education. After almost 
4 years of serving as Chair, and holding numerous hearings, my 
opinions on education are even clearer.
    First, I believe we must continue smart education reform, 
and make it sustainable. Within the past 4 years, the District 
of Columbia public schools has engaged in important and 
substantive reforms. These reforms have resulted in increased 
interest in and enrollment for the D.C. public schools, and 
must be continued to ensure a high quality education for 
District children.
    Second, I believe we must look at education as a lifelong 
endeavor. Education begins long before kindergarten and 
continues long after high school. It is this core belief that 
led me to aggressively pursue the availability and expansion of 
pre-kindergarten education programs; to champion the creation 
of the District of Columbia Community College; and to provide 
increased funding for the University of the District of 
Columbia.
    Before becoming a Council member in 2005, I served as the 
Executive Director of Covenant House Washington, a Catholic-
based organization that works with homeless, runaway and at-
risk youth. I saw many young people who themselves were already 
parents. One of the programs I established was an early 
childhood intervention program for children of these youth, and 
in the same spirit, as Council Chairman, I championed 
legislation embracing a commitment to universal pre-
kindergarten services in our traditional public schools and 
charter schools.
    Third, I believe we must work with our students, parents, 
public school employees and community as a part of the 
solution, not scapegoat them for our problems. I am committed 
to a collaborative approach to education reform. The very 
people who must buy in if schools are to be thriving 
communities--parents, teachers, community leaders, and school 
administrators--must be part of the discussion and active 
participants in decisionmaking.
    Finally, I believe we must restore accountability and sound 
management to our schools. Until we are on the road to economic 
recovery solidly, everyone will say ``we must all learn to do 
more with less.'' While this is true, we must learn how to 
leverage and manage those resources more efficiently. I am 
committed to the accountability and sound fiscal management of 
our education system.
    Almost 2 years ago, the Secretary of the U.S. Department of 
Education, Arne Duncan, announced that no additional D.C. 
school children would be introduced into the voucher program 
because of the uncertainty of funding over the long-term. At 
that time, more than 1,900 children were enrolled in the 
program and the decision of whether they would be allowed to 
continue their education in this way was completely outside of 
their parents' control.
    Even though I have not been a supporter of vouchers as an 
educational option, I supported the three-sector approach when 
it appeared that the Opportunity Scholarship Program was at its 
end. Why? Because, as someone who deeply cares about children, 
I did not want to see these children abruptly removed from 
their private school placements. Thus, what I supported was a 
program in which all the children enrolled would be able to 
continue until they graduated from the 12th grade but that 
there would be no new enrollment.
    My emphasis was, and continues to be, on building a solid 
public education system consisting of traditional public 
schools and charters.
    Decisions about educational options in the District of 
Columbia ought to be made at the State and local level just as 
these choices are made across this Nation. And we do have 
choice. In addition to our traditional public education within 
the D.C. public school system, we have what may be the most 
robust charter school movement in the Nation.
    Prior to 1996, District parents had just one choice in 
public education for their children--the D.C. public schools. 
This changed in 1996 when charters became officially a part of 
the District's educational landscape with the passage of the 
D.C. School Reform Act. The Act established the District of 
Columbia Public Charter School Board and authorized the Board 
of Education to charter schools.
    During the first year of the charter school movement, there 
were 160 students enrolled in public charters. Today, the 
Public Charter School Board oversees 52 schools, 93 campuses 
and more than 28,000 students. Public charter schools serve 
approximately 39 percent of all public school students in 
Washington, DC. The public charter school movement has 
experienced explosive growth over the past 15 years. In fact, 2 
years ago the city, at the request of the Catholic Archdiocese 
of Washington, approved seven of its schools to become charter 
schools and today, they are operating in that capacity funded 
through the Uniform Per Student Funding Formula operation, and 
regulated and monitored by the D.C. Public Charter School 
Board.
    Charter schools continue to be the vehicle that allows the 
majority of District parents to exercise their freedom of 
choice in public education and since each charter school is 
autonomous, we have one of the most diverse array of public 
education options in the country.
    The reality of parents choosing charter schools as their 
preferred method of choice was evidenced at the Annual 
Recruitment Expo sponsored by the D.C. Public Charter School 
Board, D.C. Association of Chartered Public Schools, and 
Friends of Choice in Urban Schools.
    This year's expo, held at the Walter E. Washington 
Convention Center, experienced record setting participation 
when more than 2,000 people came to meet with charter school 
leaders and learn more about specific schools. I attended the 
event and encouraged charter school administrators to expand 
their movement further into Pre-K and to add Special Education 
so additional children could be served.
    The success of the District's public charter schools cannot 
be questioned. The high school graduation rate for D.C. public 
charter schools is 8 percent higher than the U.S. national 
average. Moreover, economically disadvantaged students in D.C. 
middle and high school public charter schools are nearly twice 
as likely to rank proficient in reading and math as their peers 
in traditional public schools.
    For many years our public schools in the District had a 
dismal performance. But public education indeed is improving, 
in substantial part because of the constructive environment 
created by the existence of traditional and charter public 
schools. Soon to be released data will confirm that, for the 
first time in decades, enrollment in public education in our 
city is growing. This is the path we must continue to pursue.
    Education is the great liberator. It was for me many years 
ago and it has been for so many others. I am committed to 
building a solid, predictable, high performing birth through 
age 24 public education system and we are making significant 
progress, especially with the choices available through our 
charter movement.
    Mr. Chairman, I have more in my written testimony, but in 
the interest of time I will submit that for the record.
    Chairman Lieberman. Thanks very much, Mayor, and without 
objection we will record your full statement in the record.
    Kwame Brown is the Chairman of the D.C. Council and we 
welcome you and your testimony now.

 TESTIMONY OF HON. KWAME R. BROWN,\1\ CHAIRMAN, COUNCIL OF THE 
                      DISTRICT OF COLUMBIA

    Mr. Brown. Well, thank you, Mr. Chairman, Ranking Member 
Collins, and other Members of this distinguished Committee. I 
am Kwame R. Brown, Chairman of the Council of the District of 
Columbia.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Brown appears in the Appendix on 
page 37.
---------------------------------------------------------------------------
    It is my pleasure to speak before you today on the 
Scholarships for Opportunity and Results Act of 2011 (SORA). It 
is a pleasure, also, to participate in any forum amongst 
lawmakers that are genuinely committed to assuring that every 
child has a quality education.
    I would like to take this occasion to thank you, Senator 
Lieberman, and Senator Collins for your long-standing support 
for the District, especially your advocacy for voting rights 
for D.C. residents. Your sense of fairness and willingness to 
advocate for us all will not be forgotten.
    You have my complete and written testimony so I will 
summarize my main points for you this morning.
    I believe there is no single more important issue for the 
future of our city than ensuring that every child has access to 
a quality education. Virtually every major issue before our 
council depends on pushing ahead with educational reform. I 
support your bill as it carries a three-sector approach by 
authorizing $60 million to benefit students in the D.C. public 
schools, public charter schools, and non-public schools. This 
bill also makes some needed improvements in the Opportunity 
Program which should raise the bar for participating schools.
    As you know, in the last 5 years our city has implemented 
some of the most transformational education initiatives that 
our city has ever seen. I am absolutely confident in the Mayor 
of the District of Columbia and his commitment to make 
education not only a priority but also move it in a way that 
one day we will not be talking about opportunity scholarship 
programs because the D.C.'s public school system will be at a 
level where they will not be needed. With mayoral control of 
the schools, universal Pre-K, and landmark teacher's contracts, 
we have done a lot of work in the last couple of years in the 
District of Columbia in education.
    And while students are scoring below the national average 
on the National Assessment of Educational Progress, we still 
have seen some of the highest growth in the Nation in both 
reading and math on this test over the last couple of years. 
D.C. public schools are improving and we have an incredible 
charter school community, which are demonstrated by the 
increasing enrollment in both. Our parents have more quality 
choices now than ever before. I believe that we are on the 
right path, but we still have a long way to go before a child 
has access to high-quality education.
    Most of the discussion on this bill will focus on the non-
public sector. While I recognize and respect the concerns of 
both sides of this issue, I believe that the Opportunity 
Scholarship Program can increase the number of quality 
educational options for low-income families.
    The data suggests that students participating in the 
program and their entire families are benefiting from this 
experience. Let me say that I have had an opportunity to talk 
to several families and single moms who express their support 
of the program. But, nothing was more compelling than being in 
Safeway grocery store on Good Hope Road and speaking to a 
grandmother about the program. I could not look her in the eye 
and tell her that she should not have the opportunity to at 
least apply to have a better life for her grandkid.
    I admit that I was initially uncomfortable with the idea of 
vouchers in the District of Columbia because I felt that they 
were being presented in a way for students and families to 
leave D.C. public schools. While I support quality choices for 
families, I could never support the use of vouchers as an 
exercise or an excuse to avoid improving our public school 
system.
    We must invest in our public schools, and we are doing just 
that. I support this bill because it authorizes funds for all 
three sectors, and it will support improvements in D.C. public 
schools and D.C. public charter schools, which the majority of 
our students are attending.
    As a native Washingtonian and a graduate of D.C. public 
schools, with two small kids in D.C. public schools--one in the 
third grade and one in the fifth grade--and a wife who is a 
teacher by trade, I am all-in with moving education reform 
forward as quickly as we possibly can.
    Now, I would like to take a minute to highlight a couple 
aspects of your bill that I particularly support. First, it 
helps address some problems on how the Opportunity Scholarship 
Program is administered by including tougher requirements for 
participating schools and an evaluation process, which will 
help ensure that non-public options for our families are at the 
highest possible quality.
    Second, the bill authorizes up to 2 percent of funds for 
the program for parental outreach and coaching. It also 
authorizes an additional 1 percent for supplemental tutoring 
for student participants, which will help ensure that the 
transfer to non-public schools is as smooth as possible for 
families.
    There are, however, a couple of aspects that are concerning 
to me. While I support raising the scholarship cap to $12,000 
for grades 9 through 12, which offers an incentive for high 
schools to create additional slots, I plan to ask advocates of 
the program for an analysis of the supply and demand for the 
program on a grade-by-grade level. I am concerned about whether 
raising the cap will meet the demand for our middle schools and 
our high schools. I urge you to consider this analysis as you 
move the bill forward.
    I am also concerned that families who benefit from the 
program are placed in a position of uncertainty. I urge those 
who will support this bill--and the funding assuming passage of 
this bill--to make a commitment to fund it for a full 5 years, 
which will enable families to plan accordingly.
    I urge you to work directly with the Mayor of the District 
of Columbia as well as D.C. public schools and charter schools, 
to ensure that this bill allows them to identify the greatest 
needs for funding, and support what they feel are the most 
compelling areas of school reform.
    Mr. Chairman, I want to thank you again for your sincere 
commitment to identifying resources to help our city in the 
area of education reform. Unfortunately, some of your efforts 
are somewhat undercut by the attempts of some of your 
colleagues to slash funding from other D.C. priorities. For an 
example, it just does not make any sense to see plans being 
sent around that cut funding to Metro since a large number of 
our students, including those using vouchers, rely on public 
transportation to get to and from school. Many of your staffers 
use it, many of the government employees use it, and to see 
that type of reduction is unacceptable.
    I hope that you will work with us to ensure that education 
funding, either directly or indirectly, does not come out of 
other programs.
    Also, the discussions I am hearing regarding the 
elimination of the D.C. Tuition Assistance Program (DCTAG) is 
something that is unacceptable. That program allows students to 
go to schools outside of the District of Columbia and pay in-
state rates. I hope that program will be saved.
    Third, section eight of your bill that deals with non-
discrimination, I ask that we make sure that participating 
schools follow our local human rights law as it relates to 
discrimination.
    Last, there is some information that I heard, and I am not 
sure if it is correct, that says--and I want to make sure that 
this is clear--that no Federal dollar should go to any private 
school that does not charge tuition, I do not know if that is 
correct, but I thought I would articulate it because I have 
been hearing that and I would hope that you would take a look 
at that.
    Now, in closing, I want to thank you both for championing 
D.C. voting rights and express what it means to a lot of the 
residents of the District of Columbia who deserve to have every 
opportunity as everyone else in the country.
    Senator Collins, I want to specifically thank you for what 
you have done to triple the money for early reading incentives 
as well as the law you authorized for those teachers, who are 
spending money out of their pocket on supplies, allowing them 
to get up to a $250 tax deduction. I think that is appropriate 
and well deserved and hopefully continues.
    And last but not least, thank you for your support of Pell 
Grants. You have been a champion of that.
    I look forward to any questions that you may have.
    Chairman Lieberman. Thanks very much, Chairman Brown, for 
your testimony and for the comments about parts of our 
legislation.
    Senator Collins and I will each take a 7-minute round of 
questions and that should enable us to get you both out in time 
to get to the memorial service.
    Mayor, let us talk about the state of education in the 
District now, and again, the District has a unique status, we 
talked about voting rights, it has suffered in some ways from 
that unique status, but it is, after all, our Nation's capital 
and we want it to have at least equal treatment, not only in 
these programs, but in the ones that Chairman Brown has talked 
about. We would like it to be an example for the rest of the 
country and the rest of the world, people who visit here.
    The fact is that I agree with you, the D.C. public school's 
student performance on tests has improved, that the charter 
schools have had a remarkable effect as well, but that still on 
the Nation's Report Card and the National Assessment of 
Education Progress Test, the students' scores from D.C. are 
last. For example on the most recent test, only 11 percent of 
D.C. 8th grade public school students were considered 
proficient or advanced in math, and only 13 percent of D.C. 8th 
grade students were considered proficient or advanced in 
reading.
    So, I am sure you would agree--in fact, you did in your 
statement, that we made progress but we have a ways to go, and 
I wanted to ask you, in light of those facts, to respond to the 
argument that we have made and Chairman Brown has made this 
morning, that one way to look at the D.C. Opportunity 
Scholarship Program is as a temporary program during the time 
period when we are trying to improve the public schools so they 
really do give every child an equal educational opportunity.
    Mayor Gray. Well, first of all, I guess being ranked last 
is an interesting phenomenon because we are ranked last among 
States even though we are not accorded the opportunity to be a 
State. I am not sure, frankly, Senator, that that is the most 
fair comparison because we are an entirely urban area and when 
you start to look at other urban areas like Los Angeles and New 
York, Boston, Detroit, or other cities, I think you would 
probably find a different experience. But as you pointed out, 
the experience that is most important is how our children are 
doing----
    Chairman Lieberman. Right.
    Mayor Gray. [continuing]. And I believe our children are 
doing better. Have we reached the point where we want to be? 
Absolutely not. But when you look at the environment that we 
have created with our D.C. public schools, the environment that 
we created with our charter schools, it is clear that the 
competition is creating an opportunity for all boats to rise.
    My own view, my own desire, frankly, is to devote as much 
resources, energy, and commitment as we possibly can to 
improving public sector education because I think ultimately 
that is where the answer lies.
    I certainly am appreciative of the support of both of you. 
You have been great friends of the District of Columbia, but 
this happens to be an instance where I want to devote my full 
time, my full energy, to being able to improve the public 
education sector.
    We have been under charter schools now probably for about 
13 to 14 years and there has been a huge increase in the 
enrollment because they have been so successful. We are seeing, 
for the first time in decades, probably four decades, an 
increase in enrollment in our traditional public schools. I 
think that is an incredibly hopeful sign and I frankly think 
having our students in an environment where they can challenge 
each other, where the excellent students, the capable students, 
are in an environment where they can bring the others along, 
will rebound to the benefit of everyone at the end of the day.
    We have been into mayoral control now just for 4 years and 
I think it was the right decision. I heartily supported it as a 
member of the Council of the District of Columbia, heartily 
supported that option, and I really want to devote my full time 
and attention to that, recognizing that, again, we are 
improving, our enrollment is growing, and it is evident, 
frankly, just by the shear numbers of students.
    Chairman Lieberman. Let me ask, in that sense, a practical 
question, because I think we all agree that in the end, the 
public schools ought to be the answer.
    You mentioned in your testimony that you had supported, 
overall, the concept of the three-part program and, in fact, 
just thinking about your commitment to public schools and the 
charter program here, because of the way this D.C. Opportunity 
Scholarship Program was devised, there has been considerable 
additional funding that has come to the public and charter 
schools here in the District. The numbers that I have since the 
beginning of the program, the D.C. public schools have received 
$146.5 million under this three-part program that they would 
not have received otherwise. The public charter schools have 
received $104.5 million that they would not have received 
otherwise, and the Opportunity Scholarship program has received 
$96.7 million.
    So, I think if you can imagine a circumstance where funding 
for the Opportunity Scholarship Program was terminated 
altogether, including for the students in the program now, I 
think particularly considering the budget stress we are under, 
that there is a high probability that the District would lose 
that additional funding that you have received for the public 
schools and the charter schools.
    And so to a certain extent, my final question to you is, 
with all those advantages involved for the public schools and 
the charter schools, what is the harm in having the opportunity 
Scholarship Program part of this three-part program? How can it 
hurt to allow a certain number of students, small number, 
really, to have the scholarship to go to a private school while 
we are working with all this extra money to improve the public 
schools?
    Mayor Gray. Well, again, we are deeply appreciative of the 
resources that have been provided and they have been even more 
important to us in this recessionary environment that we have 
been operating now certainly for the better part of the last 3 
years, and without those resources there is no question that we 
would not have been able to improve our public education 
efforts to the extent that we have.
    I supposed if I was asked for my druthers it would be that 
we can invest all of those resources in improving our public 
education sector.
    When you look at choice in the District of Columbia, I 
think we are second to none. When you have 52 public charter 
schools or 93 campuses, at this stage, when you look at what 
they offer, very tailored curricula, public policy schools, 
legal options, arts and performing arts, and other 
opportunities, we have an enormous array of opportunities that 
are available to our kids. We are seeing the same experience 
moving not quite as rapidly, but moving in the traditional 
public schools as well. So, certainly we would be at a 
disadvantage if we were to lose those resources, but again if 
you ask me my druthers, it would be to take all of those 
resources and invest them in creating the best public education 
system that we possibly can in the Nation.
    Chairman Lieberman. I hear you and as you know in life, we 
do not always get our druthers, and----
    Mayor Gray. We know that one, do we not?
    Chairman Lieberman. We know that. And, if I may slightly 
amend an old tune, it takes three to tango here in the 
Congress--which is to say the President, the Senate, and the 
House--to get anything adopted. I think there is a very strong 
feeling about the Opportunity Scholarship Program in the House 
Majority this year and I think we will continue this 
discussion.
    I am just speaking for myself now, but I think that the 
extra funding that has come to the D.C. public and charter 
schools under this three-part program will be in serious 
jeopardy if the Opportunity Scholarship Program is not also 
part of what is funded.
    Mayor Gray. If I can just quickly underscore----
    Chairman Lieberman. Yes, sir.
    Mayor Gray [continuing]. What I said in my testimony to 
you, Senator Lieberman, and that is, I heartily supported every 
child who was in the Opportunity Scholarship Program 
continuing. That was absolutely essential to me. I did not want 
to see any child taken out of a program in which they were 
participating and benefiting without the parents having the 
opportunity to make that choice, and that is why I said, let us 
continue this program out to the point where all the children 
in it have a chance to finish it.
    Chairman Lieberman. I appreciate that. Thanks, Mayor. 
Senator Collins.
    Senator Collins. Thank you, Mr. Chairman. Mr. Mayor, your 
last comment is exactly what I want to ask you about. In your 
testimony, and just now in response to Senator Lieberman, you 
supported Secretary Duncan's proposal in which all of the 
children currently enrolled in the Opportunity Scholarship 
Program would be able to continue until they graduate from the 
12th grade, but there would be no new enrollments.
    I have to tell you that I have never understood the 
Secretary's reasoning in that regard and it suggests to me a 
political decision and not one that is based on a fair 
valuation of the program. Think about it, if a child is in 
kindergarten as of last year, that child would be allowed to 
stay in the D.C. Scholarship Program for another 12 years. If 
the program is not living up to its potential as Secretary 
Duncan must think, because he is not allowing new enrollments, 
then why would you allow children to continue to stay in the 
program? This just does not make sense to me. Either the 
program is a successful program, in which case we ought to be 
allowing new enrollments, or it is a failed program, in which 
case we should be taking children out of it, not allowing 
someone who is in kindergarten to be in it for another 12 
years.
    So, I truly do not understand the reasoning behind the 
Secretary's decision. It just does not make sense to me and you 
have endorsed that decision today. And I do not mean to put you 
on the spot, but I truly do not understand that reasoning and I 
wondered if you could give me your perspective.
    Mayor Gray. Well, my view is not based on a political 
decision, it is based on the opportunity for these parents and 
these children to continue in a placement that they have felt 
best served their children. I did not want them uprooted 
because of a political decision, I wanted them to be able to 
have a chance to continue in the placement that they were in, 
but I also wanted to be able to have the optimum opportunity to 
be able to build a public education system.
    So, again, my position on this is not based on a political 
calculation, it is more based on what choice that those parents 
would make at that particular moment. I do not know that they 
would continue if the child is in the kindergarten to first 
grade that they would not choose at some point to come back to 
one of our schools in the District of Columbia. As I indicated 
earlier, seven of those schools that would have been part of 
the Opportunity Scholarship Program, are now part of our 
charter movement because the Catholic Archdiocese asked us to 
take over those schools and operate them.
    So, mine was an effort simply to try to be as sensitive as 
I possibly could to the families and the children involved, but 
at the same time recognize we are building a strong public 
education system, and to devote my maximum energy and resources 
to that.
    Senator Collins. Well, on the Catholic schools, I will tell 
you that based on my discussions with the Archdiocese, the 
reason that those schools have now become charter schools is 
they basically are bankrupt, and if this program were 
continued, they would still be operating as Catholic schools. I 
realize that is a whole other issue, but I have to say I think 
either this program is a good program that benefits students, 
which is what I believe, as part of the three-sector approach, 
then we should allow it to continue and have it be open to 
others. If it is not a good program, then why would we allow 
students to continue for potentially another 12 years in it and 
I just think that is inconsistent.
    Chairman Brown, in my remaining time, let me ask you a 
question, and I appreciate your kind comments about my work on 
education issues which I do care deeply about. Could you 
provide us with some insight into the D.C. Council's thoughts 
or positions on the three-sector program based on your 
discussions with your council colleagues? What are the views 
that you are hearing about whether the three-pronged approach 
should be continued?
    Mr. Brown. Well, most of the conversations that we have are 
about making sure that public education in the District of 
Columbia is successful. All of our energy and time has been 
spent making sure that we improve the lives of our children who 
are being sent to D.C. public schools and D.C. public charter 
schools. I believe that my colleagues whom I have talked to, 
every single one of them, believe in trying to support this 
particular mayor who is working hard and has worked with us 
side-by-side as a colleague on these tough issues.
    When it comes to the voucher program, there has been little 
dialogue because most of our energy is spent making sure that 
there is no reason to have any voucher program because we are 
going to have a successful school system.
    Senator Collins. That is certainly the goal for all of us, 
but I would go back to the comment that Ronald made at our last 
hearing a year ago, and that is that D.C. schools did not get 
bad overnight, they are not going to become good overnight. 
They are clearly improving and I think the three-sector 
approach has helped lift the quality of the schools, but as the 
Chairman's statistics show, we still have a ways to go.
    I also want to second what the Chairman said. I believe 
that unless there is a three-sector approach, the money for 
D.C. public schools and D.C. public charter schools, will be in 
jeopardy. I do not see Congress, in this environment--and all 
of us have public schools in our own States that are really 
suffering and that need funding--approving anything other than 
a three-sector approach. So, I hope as deliberations in the 
council go on that you will both keep in touch with us and, 
again, I thank you both for being here today.
    I know that we all have the same goal. We may have 
different means of getting there, but our goal is the same. 
Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Collins. Well, said. 
Mayor Gray, Chairman Brown, thanks for your time. We will 
continue to discuss this and all the other issues that are 
important to you and your leadership capacities, and obviously 
to the people of the District of Columbia. Thanks very much for 
being with us this morning.
    Mayor Gray. Thank you Senator. Thank you both, again for 
having us here today and thank you, frankly, for your support 
of our city on so many fronts.
    Mr. Brown. Thank you. Thanks to both of you.
    Chairman Lieberman. We will not change that. Thank you. 
Have a good day.
    We will call the second panel, Kevin Chavous, Chairman of 
the Board of Directors of the Black Alliance for Educational 
Options, Virginia Walden Ford, Executive Director of D.C. 
Parents for School Choice, and Patrick J. Wolf, Professor and 
21st Century Chair in School Choice at the Department of 
Education Reform at the University of Arkansas.
    Well, good morning and thank you. I saw Ronald Holassie 
here. Is he still here? Maybe he went out. I just wanted to 
recognize the much-quoted student in the D.C. school system.
    Thank you, the three of you, for being here. You are 
familiar faces, but your testimony continues to be important to 
us and, Mr. Chavous, it is our honor to call on you first.

TESTIMONY OF KEVIN P. CHAVOUS,\1\ CHAIRMAN, BOARD OF DIRECTORS, 
             BLACK ALLIANCE FOR EDUCATIONAL OPTIONS

    Mr. Chavous. Thank you very much, Mr. Chairman, Senator 
Collins, and Members of the Committee. I appreciate the 
opportunity to speak before you today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Chavous appears in the Appendix 
on page 42.
---------------------------------------------------------------------------
    Let me add some perspective particularly based on hearing 
from the Mayor and the Chairman on this whole issue. Fifty-six 
years ago, the U.S. Supreme Court declared that segregation in 
our schools was unconstitutional. They said it was wrong. They 
said it was un-American. And they said that equality for all 
mattered.
    Brown v. the Board of Education sparked the flame of true 
and honest civil rights in our country, but it was only the 
beginning of a struggle we as a Nation deal with each and every 
day.
    Today, we are fighting for a different kind of equality, an 
America where all children, no matter their income, can attend 
the very best schools. Quite frankly, as you know and I know, 
that we can no longer accept the pattern of mediocrity in our 
schools, we can no longer accept failure, we can no longer 
tolerate excuses from central offices. If we are to achieve 
equality we seek, we must act and we must act now.
    That is why I support school choice, parental choice. That 
is why I believe in the D.C. Opportunity Scholarship Program.
    Mr. Chairman, it is not a battle of ideology, it is a 
continuation of the fight for civil rights in our country.
    The D.C. Opportunity Scholarship Program sends a clear 
message to families, to children, and to our community: If you 
are poor, if you are stuck in a school that is failing, that is 
unsafe, and that no amount of money can fix right away, we are 
not going to make an experiment of you, we are going to help 
you, now, and we are going to do it, not 5 years from now, but 
today. And we are going to give you a chance at success. The 
essence of the program, Mr. Chairman, is in its name: 
Opportunity.
    Some can call the D.C. Opportunity Scholarship Program a 
scholarship program. You can call it a voucher program. I call 
it a lifeline.
    And so does Tiffany Dunston. Tiffany, like Ronald, was an 
OSP student who ended up being valedictorian at Archbishop 
Carroll High School here in the District. Tiffany now attends 
Syracuse University. Candidly, Tiffany says she would not have 
made it but for the Opportunity Scholarship that she received. 
But poignantly her biggest hope is that more children are given 
the opportunity she was given.
    Mr. Chairman, the D.C. Opportunity Scholarship Program has 
provided scholarships allowing the lowest-income D.C. children 
to attend better schools, private schools that are mere blocks 
away from the public schools that long ago stopped serving 
their needs. The program is open to everyone. There is no 
discrimination, no academic test for entrance, no cherry-
picking. And while it is not easy for many of those children to 
make the transition the results have been stunning. Graduation 
rates are 91 percent for those who used their scholarships. 
Improved reading scores have taken place for those students. 
And parental satisfaction is overwhelming.
    The U.S. Department of Education has said that the program 
is one of the most effective programs they have ever studied. 
By any measure, by any test, by any rational standard, this 
hearing should be about how we can expand this program not just 
in Washington, D.C. but as a model for all other parts of the 
nation. Instead, by a cruel twist of political fate, and for 
whatever reason, be it petty allegiances or scores to settle, 
the creative and aggressive opponents of this program are 
weaving a false narrative about how the program was started and 
how it has worked.
    They say, for instance, Mr. Chairman, that it was forced or 
foisted upon the residents of the District of Columbia. They 
say it was imposed on us by the Republicans and that the people 
of the District did not want it.
    Well, that is an interesting story, but it is simply not 
true, Mr. Chairman. I know, I was there.
    I served on the D.C. Council for 12 years. I was chairman 
of the education committee. I am a lifelong Democrat. And in 
the past, while I was on the council in the early years, I did 
oppose education programs that were proposed for the District 
of Columbia by some Congressional Republicans. I thought they 
were draconian. I thought they were unnecessary.
    But, Mr. Chairman, the D.C. Opportunity Scholarship Program 
was not forced on us, quite the opposite, I like to think that 
the parents of this city forced the program on Congress. 
Hundreds, probably thousands, of parents, many in this room and 
especially the lady to my left, Virginia Walden Ford--many of 
these parents fought for this program. They came to Capitol 
Hill every day. They wanted help immediately. They were 
tireless, dedicated, fearless, and determined in their efforts 
to give their children better lives.
    To say that this program was imposed on the District of 
Columbia is to rewrite history, and, in one broad brush white-
out the hard work of these parents. And frankly, Mr. Chairman, 
it is offensive.
    For my part, I personally worked with Mayor Anthony 
Williams, Education Secretary Rod Paige, School Board President 
Peggy Cooper Cafritz, and the President of the United States to 
help make this program a reality. It was a collaboration. And 
just as you and Senator Collins alluded to in your discussions 
with the Mayor and Chairman Brown, we insisted on a three-
sector approach--funding for the scholarship program, for 
charter schools, and for public schools. We worked very hard to 
develop a program that fit the unique educational needs of the 
District where not one dime, Mr. Chairman, as you mentioned, 
was diverted from public schools.
    I say this not to codify my role in the process but to tell 
you the truth, this was no imposition. This program was a 
collaborative solution and we knew there may be a political 
cost and for some of us, there was, but we all knew that there 
is never a price that is too high to pay for doing what is 
right for children.
    If you doubt that this program has support and has 
succeeded, look at the application numbers to which Senator 
Collins alluded. They do not lie.
    Nearly 9,000 parents applied for their children to 
participate in the program, even when there were only 3,300 
slots over the 5-year life of the program. Nearly 8,000 
residents signed a petition supporting reauthorization of the 
program. And just recently, over the last month, Mr. Chairman, 
the Black Alliance for Educational Options has signed up 500 
parents who said that they would apply for the program if new 
slots were made available.
    Look at what the District residents say. As Senator Collins 
indicated, this scientific public opinion poll shows that 
three-quarters of District residents want this program 
restored, reauthorized, and expanded.
    Maybe the people know something that some of our leaders do 
not. They want this program and they know it works.
    Mr. Chairman, people who oppose the program will do 
anything to prevent its reauthorization and the truth is indeed 
no barrier. They will cast aspersions on the families, tell 
tall tales about the schools, question the motives of 
supporters, and rewrite history with righteous indignation. But 
for me, none of this matters.
    In conclusion, Mr. Chairman, it does not matter because I 
carry with me the memory of the family that came into my office 
one day many years ago, a mother and a father coming to see 
their councilmen and they were in tears. They told me their son 
would die if he did not have a chance to go to a better school. 
It was just that serious for them, a matter of life and death. 
They had no money; they were losing hope, and they told me to 
fight for their son.
    Do not talk, Mr. Councilman, fight.
    And there was no way that day or any day going forward that 
I could tell that family or any other to wait until our public 
schools were completely fixed. The truth is, public schools 
here are getting better, they are improving, and I support our 
public schools and our teachers. But as long as there are still 
families like the one that visited my office, we have no choice 
but to provide all options to our children, immediate options 
so that no child is forced to suffer or falter or fail.
    To borrow a line from Malcolm X, we must educate our 
children ``by any means necessary.'' Public schools, charter 
schools, virtual schools, magnate schools, home schooling and, 
yes, Mr. Chairman, Opportunity Scholarships. We need nothing 
short of a revolution in education and I urge you and Members 
of this Committee to be on the right side of that history, the 
side of opportunity, the side of hope, the side of the families 
and their dreams for their children.
    At the end of the day it is not about protecting the system 
which we all would like to see do better, it is about giving 
our children an equal opportunity. I urge this Committee to 
reauthorize this program. I thank you personally, Mr. Chairman, 
for your steadfast support, and let us renew hope for a better 
future for our District and our Nation.
    Chairman Lieberman. Thank you. That was an excellent 
statement. I appreciate every part of it. I am struck also by 
what you said, that this is not an ideological battle, it is a 
battle for civil rights and there is a new group that has 
formed called the ``No Labels Movement.''
    It is about not having people focus on their party labels, 
but it is also true in this particular case, it is a bit odd, 
even, because I think by conventional terms, you would say that 
this program is a liberal program in terms of being a human 
service equal opportunity program, and yet somehow the 
conventional labels get turned around. And I think if we see it 
as what it is, which is a civil rights program, then maybe we 
can create some common ground to get this done again, and I am 
confident we are going to get it done.
    Virginia Walden Ford has been a great leader in this 
effort, Executive Director of the D.C. Parents for School 
Choice. Thank you for returning again and for all you do every 
day to keep this program alive.

TESTIMONY OF VIRGINIA WALDEN FORD,\1\ EXECUTIVE DIRECTOR, D.C. 
                   PARENTS FOR SCHOOL CHOICE

    Ms. Ford. Thank you, Senator Lieberman. You have been our 
champion over the years and we appreciate you and Ranking 
Member Collins, and other Members giving us a chance to come 
and speak on behalf of the transformational D.C. Opportunity 
Scholarship Program.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Ford appears in the Appendix on 
page 45.
---------------------------------------------------------------------------
    Not long ago, I was talking to my 27-year-old son about our 
life, about our family's lives. For a brief moment, I looked at 
him and I saw the 13-year-old boy who by the time he entered 
his freshman year of high school was several grade levels 
behind and getting in trouble, in class and out. He felt like 
no one but me cared if he learned, and he felt as if he was not 
safe in that environment. He was really struggling.
    As a single mother of three, I felt powerless to help him. 
I remembered, in that moment, how out of the blue, an answer to 
a prayer or a miracle, a neighbor offered us a scholarship for 
my son, William, to attend any school I chose. It was just 
unbelievable, and we chose a school that would keep him safe, 
nurture his talents, and prepare him for life.
    When I came back to the present, I saw before me this 
wonderful young man who has just made me proud and will 
continue to make me proud, who has served in the Armed Forces, 
served in Iraq, and is just an incredible kid, and I know that 
scholarship made the difference.
    But in receiving the scholarship for my son, I remember 
asking, ``Why me?'' I mean, I was happy, but why not other 
families around me, especially those that lived in my community 
where I was watching their children not fare so well.
    So, I embarked on a remarkable personal journey that has 
allowed me to meet so many parent, thousands of them over the 
years, who only want what I wanted: A chance for their 
children.
    I have met parents who live in every corner of this city. 
It did not matter what ward they called home; they were crying 
out for options. They were willing to fight peaceably to 
improve the educational futures of their children. They did not 
ask for much, just that their political leaders would allow 
them to access the amazing private schools right in their own 
neighborhoods instead of forcing their children to attend 
neighborhood public schools that were not improving, were not 
safe, and were not healthy environments.
    Together we came and talked with you and your colleagues. 
We told you how our children could not wait for 5 more years 
for our public schools to fix themselves. We told you that our 
children needed immediate options. We told you that even though 
many of us struggled to make ends meet, it did not mean our 
hopes for our children were not just as high as the hopes you 
have for yours. And you listened. The D.C. Opportunity 
Scholarship Program became law.
    The D.C. Opportunity Scholarship Program provided that 
immediate option, that ray of hope, to 3,300 children. These 
are children who are very poor. These are kids that, in many 
places, would have been written off, consigned to lives of 
mediocrity or worse. Thanks to you and your colleagues, they 
were not.
    The D.C. Opportunity Scholarship Program gave them a chance 
to go to schools that made them scholars. It made them 
important in the eyes of the world. It gave them the 
inspiration to succeed. It has been, like the scholarship I 
received for my son, a miracle.
    Chairman Lieberman, and too the other Members of the 
Committee and Ranking Member Collins, I know very well that 
this program is not just about peace of mind. It is about the 
improvement and expansion of the young minds we have been 
called to serve and when you stack this program up to the other 
educational initiatives that have been tried in our city over 
the past two decades, the D.C. Opportunity Scholarship Program 
is a resounding academic success.
    Parents love it. Parents like Patricia Williams, Joe Kelly, 
or Sheila Jackson, who are all here with their children today. 
Patricia, Joe, and Sheila feel safe knowing their children are 
going to school where they have been treated well, where they 
are encouraged to be creative, and where they are pushed to 
excel.
    Now, some people say we cannot restore and extend this 
program because not enough low-income children would receive 
scholarships. That is about the worst argument I have ever 
heard. I am reminded of the example of Harriet Tubman, and I 
just love this story, the African-American abolitionist and 
famous conductor of the Underground Railroad. While she worked 
to abolish slavery, Tubman made 19 trips into the south and 
transported 300 slaves into freedom.
    Harriet Tubman knew that she could not personally rescue 
all of the slaves in America, but she knew that she could save 
some, and what an amazing difference she made in each of their 
lives. She certainly did not just give up and I would ask 
everyone in this room today: Would you go back in history and 
tell Harriet Tubman that her efforts, her struggle, her worth, 
should be scrapped, ended, cancelled, or eliminated? The course 
of history has shown us that it was worth it to the cause of 
equality in our Nation and that fight continues today.
    The sad part is that the D.C. Opportunity Scholarship 
Program is, for now, closed down to new parents and families, 
even the siblings of current participants, who desperately want 
to access it. I cannot tell you the number of calls I have 
received from parents who are distraught that the government is 
shuttering, what they believe, shuttering the program. It is 
just devastating. It is tragic. And it deprives so many 
children of the opportunity to see their greatest dreams come 
true.
    The parents who call me all ask me one thing: Why can one 
of their older children be allowed to attend a great school, 
while their younger one is forced into a failing one? Why did 
the program end this year, just when they were about to apply?
    I do not have an answer to these parents. I am here because 
I hope, I pray, that you do.
    Mr. Chairman, you have the power to answer these parents, 
you and your colleagues, you and the other Members of the 
Committee and Senator Collins and others. You will not only 
answer their questions, you will answer their prayers. You will 
empower their families. You will change their children's lives. 
This program is just that powerful and I have seen it, and you 
can restore it. We must restore this.
    Mary McLeod Bethune said: ``We have a powerful potential in 
our youth, and we must have the courage to change old ideas and 
practices so that we may direct their power toward good ends.''
    Let us move forward today and do just that with a full 
reauthorization of the D.C. Opportunity Scholarship Program.
    And, again, thank you for your support over the years.
    Chairman Lieberman. Thank you. That was not only an 
excellent statement, it was an inspiring statement. If I could 
get every one of my colleagues to face the two of you----
    Ms. Ford. We will do it.
    Chairman Lieberman [continuing]. And hear what you said 
today, I do not think we would have any problem passing this.
    I really appreciate it. I was struck also by something you 
said about your personal experience, that you had a neighbor 
who came through and provided a scholarship for your son. What 
if instead of the D.C. Opportunity Scholarship Program being 
funded by tax dollars, some wealthy individual came forward, 
created a foundation, and then created this opportunity 
scholarship program? I think everybody would embrace it. So, 
what is the difference that we are putting public money into 
this?
    Public money is the main source of funding for education, 
obviously, overwhelmingly in our country and it just does not 
make sense, so that the good fortune that you happened to have 
for your son is something we are trying to expand as you have 
for other children and give them an equal opportunity.
    The other thing you said, and Mr. Chavous said also, is 
that besides all the principle that is at work here, that we 
are on the right side, we feel so strongly. If the program was 
not working, it would be a harder case for us to make even 
though I support the idea of choice and competition, but Dr. 
Wolf has done independent work that, to me, says the program is 
working and in that sense it would be really unjust not to 
continue it and to continue to add children to it.
    So, Dr. Wolf, we welcome you back again and look forward 
now to hearing about your latest research into this program.

  TESTIMONY OF PATRICK J. WOLF, PH.D.,\1\ PROFESSOR AND 21ST 
CENTURY CHAIR IN SCHOOL CHOICE, DEPARTMENT OF EDUCATION REFORM, 
                     UNIVERSITY OF ARKANSAS

    Mr. Wolf. Mr. Chairman, I am pleased to be with you today 
to discuss what we know about the D.C. Opportunity Scholarship 
Program. I served as the principal investigator of an 
outstanding team of researchers who conducted a 
congressionally-mandated independent study of the OSP supported 
by the U.S. Department of Education's Institute of Education 
Sciences.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Wolf appears in the Appendix on 
page 48.
---------------------------------------------------------------------------
    I am also a professor at the University of Arkansas with 
more than a decade of experience evaluating school choice 
programs across the country.
    Although the facts that I present to you today are taken 
directly from our recently completed impact evaluation, the 
ideas and opinions I express are my own professional judgments 
and do not necessarily represent any official positions of the 
evaluation team, the University of Arkansas or the U.S. 
Department of Education.
    Senator Lieberman, because this statute required that the 
evaluation use the most rigorous research method possible, we 
relied on lotteries of eligible OSP applicants to create two 
statistically equivalent groups who were followed over time and 
whose outcomes were compared.
    Our method is called a Randomized Control Trial or 
Experiment and is widely viewed as the gold standard for 
evaluating programs.
    We were able to follow the smaller first cohort of 
participants in the experiment over 5 years and the much larger 
second cohort for 4 years. We therefore characterized the 
program impacts in our final report as the results in the final 
year or the results after 4 or more years.
    Our analysis also indicated the confidence we should have 
in our ability to rule out statistical noise as the reason for 
any observed differences between the scholarship treatment 
group and the control group.
    When we could rule out random factors as a cause of 
differences with high confidence, we characterized the impact 
of the program as statistically significant. The level of 
confidence surrounding such judgments ranges from zero to 99.9 
percent, though we simplified the analysis by using the 
specific cut point of 95 percent confidence to judge whether 
impacts were statistically significant.
    Researchers use a variety of cut points for determining 
statistical significance, most commonly 90 or 95 percent.
    In the interest of transparency, I will describe the 
specific confidence level that we can associate with each OSP 
impact and leave it to members to judge if those levels are 
convincing.
    Our evaluation focused on two distinct measures of program 
impact. The impact of a scholarship offer, called ``Intent to 
Treat'' (ITT), is the simple difference between the treatment 
group average and control group average for a given outcome. 
Since about 22 percent of the students offered Opportunity 
Scholarships never used them to transfer to a private school, 
we also adjust the ITT impact to account for ``never users'' 
yielding the experimental impact of actually using a 
scholarship, called the ``Impact on the Treated'' (IOT).
    The most important outcome we examined in our evaluation 
was the program's impact on student educational attainment as 
measured by the rate of high school graduation. President Obama 
and Secretary Duncan have cited getting more students through 
high school as the highest priority of education policy because 
graduating is closely associated with a variety of positive 
personal and social outcomes including higher lifetime earnings 
and lower rates of unemployment and crime.
    Based on parent reports, the students in our study graduate 
from high school at significantly higher rates as a result of 
the OSP. As portrayed in Exhibit 1, the treatment group 
students graduated at a rate of 82 percent, that is 12 
percentage points higher than the control group rate of 70 
percent.\1\
---------------------------------------------------------------------------
    \1\ Exhibit 1 appears in the Appendix on page 53.
---------------------------------------------------------------------------
    The actual use of an Opportunity Scholarship increased the 
probability of graduating from 70 percent to 91 percent, a 
positive impact of 21 percentage points. We are more than 99 
percent confident that access to school choice through the 
Opportunity Scholarship Program was the reason why OSP students 
graduated at these much higher rates.
    The positive impact of the OSP on high school graduation 
was also clear for the high priority students in the study who 
applied to the program from schools designated as ``in need of 
improvement'' (SINI). These were the students that Senator 
Collins mentioned as a high priority of the program and she 
mentioned the fact that if the program were eliminated the 
students would have to return to, for the most part, these 
schools designated ``in need of improvement.''
    The offer of an Opportunity Scholarship increased the 
graduation rate for SINI students from 66 percent to 79 
percent. Actually using a scholarship boosted their likelihood 
of high school graduation by 20 percentage points, from 66 
percent to 86 percent. This positive impact of the OSP was 
statistically significant with more than 98 percent confidence.
    Conclusive experimental results permit us to make reliable 
forecasts.
    Cecelia Rouse, a member of President's Council of Economic 
Advisors, has determined that each additional high school 
graduate saves the Nation an average of $260,000 as a result of 
higher taxable earnings and lower demands for social services. 
That means that the 449 additional high school graduates due to 
the operation of the OSP will save our Nation approximately 
$116 million.
    These experimental results also mean that approximately 111 
students in the experimental control group will fail to 
graduate from high school simply because they were denied 
access to the Opportunity Scholarship Program.
    The evidence that students achieved at higher levels due to 
the OSP is less conclusive than the evidence that they 
graduated at higher rates. Our analysis of test score data 
across all years of the study merely suggest that OSP students 
likely benefited academically from the program in reading but 
probably not in math.
    The statistical probability that the OSP had a positive 
impact on student reading scores was 91 percent after 2 years, 
99 percent after 3 years, and 94 percent after 4 or more years 
as depicted in Exhibit 2.\1\
---------------------------------------------------------------------------
    \1\ Exhibit 2 appears in the Appendix on page 54.
---------------------------------------------------------------------------
    Although the students offered opportunity scholarships on 
average scored higher than the control group in math as well, 
those differences were so small each year that we cannot rule 
out statistical noise, with any reasonable level of confidence, 
as their cause.
    Parents were more satisfied with their child's school as a 
result of the OSP. The proportion of parents who assigned a 
high grade of A or B to their child's school was 8 percentage 
points higher if they were in the treatment group, and 10 
percentage points higher based on scholarship use. This impact 
was statistically significant with more than 99 percent 
confidence. Parents also viewed their children as safer in 
school if they participated in the program, an impact that was 
statistically significant with 98 percent confidence.
    Students in grades 4 through 12, when asked similar 
questions, were no more likely to be satisfied with their 
school or described it as safe if they were in the OSP.
    How impressive are the academic impacts of the OSP? When 
compared to 13 other experimental studies sponsored by the 
Department of Education's National Center for Educational 
Evaluation, the educational attainment and achievement impacts 
from the OSP rank as the second most impressive to date, as 
shown in Exhibit 3.\2\
---------------------------------------------------------------------------
    \2\ Exhibit 3 appears in the Appendix on page 58.
---------------------------------------------------------------------------
    Only the impacts from problem-based economics instruction 
have been larger than those from the OSP. Nine of the 14 
studies found no statistically significant results at all, or a 
disappointing mix of positive and negative impacts.
    Mr. Chairman, actual people often speak more eloquently 
than do scientists. I close by quoting the words of an OSP 
parent who attended a focus group and spoke of her son who used 
a scholarship to attend a private high school. ``When my son 
dressed in that uniform with that green blazer, the white 
shirt, tie, gray trousers and he looked like a gentleman and a 
scholar and he had his hair cut and his glasses and he was just 
grinning from ear to ear that he was going to be a part of that 
[private school culture] and he went to school that day and he 
was excited about going to school.''
    Mr. Chairman, there are more details in my written 
testimony and also in this scintillating 208 page report. Thank 
you.
    Chairman Lieberman. Thanks, Dr. Wolf, that was great. And I 
was going to say before you ended the way you did that numbers 
are dry but as you well know and as you show by your work, you 
are talking about real people, real children, so when we talk 
about the graduation rates, the impact, it is really quite 
remarkable.
    Do you want to elaborate anymore on this graduate rate 
data, especially for our highest priority students?
    Mr. Wolf. Well, graduation is the whole game.
    Chairman Lieberman. Right.
    Mr. Wolf. I mean, education attainment is what we long for, 
for our students. And we have long been disappointed with the 
graduation rates from high school nationally and particularly 
in inner cities.
    So, to find a program like the OSP, which clearly improves 
the prospects of high school graduation rather dramatically, is 
a real find and so I think the other exciting thing is we are 
starting to see this in other school choice programs as well.
    There was a very careful study of charter schools in 
Florida that also found that charter schools of choice lead to 
higher graduation rates and we are about to release a report in 
Milwaukee about the effect of their voucher program on 
graduation rates. I cannot announce the results yet, but you 
will be interested to see that next month.
    Chairman Lieberman. It sounds like we will not be 
disappointed. You do not have to answer that. [Laughter.]
    The record will note that you smiled. [Laughter.]
    Incidentally, I was really impressed, I had never heard 
those numbers before about the attempt to quantify the 
different economic impact of a high school graduate on our 
society and the cost result if somebody does not graduate from 
high school. Let me just make this point, which I know you are 
familiar with, this is another element of the cost impact: The 
Congressional Research Service (CRS) did a study last year on 
this D.C. Opportunity Scholarship Program\1\ and talked with 
the Mayor and the Chairman about the tripartite, the support 
that D.C. got for the public schools and charter schools.
---------------------------------------------------------------------------
    \1\ The CRS report appears in the Appendix on page 60.
---------------------------------------------------------------------------
    But Rebecca Skinner who did that study concluded that if we 
stopped this program altogether and at that point she talked 
about 1,721 voucher recipients transferred back into the city's 
public schools, it would cost the city approximately $15 
million more to provide education for those students in the 
public schools, so it would not only be, as was testified to 
earlier, Senator Collins and others, that 93 percent of the 
students would go back to schools that are designated as 
failing in one way or another under the No Child Left Behind 
Act, but it would add a $15 million price tag for the taxpayers 
of the District.
    Dr. Wolf, you reported that there was initially a 
statistically significant increase in reading achievement, but 
ultimately the improvements, while not statistically 
significant at the 95 percent confidence level, were 
significant at the 90 percent confidence level. Given your 
overall research experience, do you believe that the results we 
are seeing from the OSP study are in fact significant?
    Mr. Wolf. Mr. Chairman, I do. I mean, ideally you want to 
see the result in the range of 95 percent significance or more, 
then you can say it is conclusive, it is undeniable, there is 
only a 5 percent chance that this is a false finding.
    But what we also saw, of course, was a pattern of 
achievement gains over time and given the pattern of gains over 
time and the fact that the final year results were 94 percent--
we could be 94 percent confident. That says to me the 
preponderance of evidence certainly points toward very real 
reading gains for the participants in the program.
    Chairman Lieberman. Yes, I appreciate that answer and I 
agree. I know this is a field unto itself and I understand 
setting the standard at 95 percent, but 94 percent certainly 
makes me confident. I hope it would make my colleagues, as we 
invest in this program, confident that there are statistically 
significant bottom lines, to put it in the lay language, the 
kids in this program are doing better at reading as a result of 
being in the program.
    I do not want to get too deeply into this, but just for the 
record, because I know some people may misuse the notion that 
it is not significant, I wanted to ask you to address a 
technical term, I wanted to ask you to address how a decrease 
in the test group size could impact the accuracy of the data 
collected and whether the increases we are seeing make a 
difference for students in the OSP program.
    Mr. Wolf. Mr. Chairman, that is an excellent point. A major 
development happened between the third and fourth year test 
score analyses. Over 200 students graduated out of the testable 
grades.
    Chairman Lieberman. Right.
    Mr. Wolf. So, the final sample of students we tested was 
much smaller than the sample we tested in the third year and I 
know it included a lot of the Cohort 1 students who graduated 
out, and they had been showing the highest reading gains 
throughout the evaluation.
    Statistical significance is driven by the size of the 
difference and the number of subjects to the study who are 
providing evidence about that, and so we lost about 10 percent 
of our sample----
    Chairman Lieberman. Right.
    Mr. Wolf [continuing]. Going from Year 3 to Year 4, that 
alone could be one reason why the statistical significance 
slipped.
    Chairman Lieberman. OK, I appreciate it. Mr. Chavous and 
Ms. Ford, you spoke so well, I do not have a single question to 
ask you, not even a leading question. I give you the 
opportunity to say anything more you would like before we 
adjourn the hearing.
    Mr. Chavous. I just thank you for your support, Mr. 
Chairman, and I think you could tell from the testimony of the 
Mayor and the Council, that there is growing support, and 
Senator Collins asked Chairman Brown about where the Council 
colleagues are and I am confident in saying that a majority of 
the Council supports new kids coming into the program. I think 
that would be made more evident over time.
    So, again, we just appreciate your steadfast commitment.
    Chairman Lieberman. It is my honor. Ms. Ford.
    Ms. Ford. I would just like to say on behalf of the parents 
that I represent, I hope, that we want to thank you and all of 
your colleagues that have been so much our champions over the 
years. I mean, I do not know if you realize, you are our heroes 
because you have steadfastly stood beside us and our kids and 
we really appreciate that, and we will be here for you moving 
forward.
    Chairman Lieberman. Thanks. You really touch my heart by 
saying that but this really is our responsibility and you are 
the ones who care enough about your children to really go out 
of your way, and again, on a morning like this, to be here to 
make the point. And you mentioned prayers before, and sometimes 
prayers are answered in unusual ways, but who would have 
guessed that the results of last November's elections would 
bring us here this morning feeling a lot better about our 
prospects to reauthorize this program? The legislation we put 
in, the Speaker and I introduced it the day after we 
reconvened. I mean, I cannot state how deeply he feels this. He 
wanted to get it right in, and as far as I know, it may be the 
only piece of legislation he will put his name to this year. 
So, we have reason for our hopes to be higher.
    We all know, it is not over until it is over, but this is 
so right and you have made the case again, and Dr. Wolf, your 
studies really bring us from the point of principle, and sort 
of dreams, to the point of statistical social science that says 
this is not only right, but it is working.
    Anyway, I cannot thank you enough. Go forward from here 
with some hope. We are just not going to miss any opportunity. 
This is a 5-year reauthorization and I think we have a real 
shot at it this year, and also we need not only to continue to 
support the students in the program, but to fund new places as 
well.
    So, we will keep the record open for 15 days for any 
questions, additional questions or statements. I have a 
statement from Senator Durbin that he wanted to put in the 
record of the hearing.\1\
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Durbin appears in the 
Appendix on page 99.
---------------------------------------------------------------------------
    With that, I thank you all.
    The hearing is adjourned.
    [Whereupon, at 10:53 a.m., the Committee was adjourned.]








                            A P P E N D I X

                              ----------                              


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
